                              SENSITIVE BUT UNCLASSIFIED




                    UNITED STATES DEPARTMENT OF STATE
                AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL

ISP-I-13-47                                   Office of Inspections                                September 2013




                        Inspection of
             The Office of the U.S. Global AIDS
                        Coordinator




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Acting Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                        1
Context                                              2
Executive Direction                                  4
  Policy Review                                      5
Coordination and Planning                            6
  Coordination                                       6
  Strategic Planning                                 7
Organization and Management                          9
  Staffing                                           9
  Monitoring & Evaluation                           10
  Administrative Oversight                          11
  Office Security                                   11
  Managing Information                              12
  Knowledge Management                              12
  Information Technology                            14
Management Resources                                16
List of Recommendations                             17
List of Informal Recommendations                    19
Principal Officials                                 20
Abbreviations                                       21




                                    iii
                       SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Office of the U.S. Global AIDS Coordinator has effectively overseen a multibillion
    dollar program that has made great strides against a global health problem. It is seeking to
    implement a transition that will see recipient countries fund and manage the program through
    expanded collaboration with multilateral and bilateral partners.

•   While the President’s Emergency Program for AIDS Relief has an excellent record of
    success, the internal management of the coordinator’s office needs to be improved. After 10
    years, it is no longer an emergency office and needs to organize for the long haul and address
    such basic issues as strategic planning, personnel management, and knowledge management.

•   Contracting officer’s representatives are not conducting adequate oversight, a particular
    concern since approximately half the office’s staff members are contract personnel. Some
    contract personnel are performing inherently governmental functions. In at least one case, the
    coordinator’s office pays an excessively high contract rate to a contractor serving as a senior
    advisor.

•   The creation of the Office of Global Health Diplomacy offers an opportunity for diplomatic
    cooperation and coordination that will be helpful in negotiating a transition to sustainability
    and recipient-country ownership.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between April 22 and June 14, 2013. Ambassador
Kevin McGuire (team leader), Colleen Ayers, and Charles Silver conducted the inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        It has been 10 years since Congress passed the United States Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Act of 2003. 1 The Act called for a comprehensive,
integrated approach to combat HIV/AIDS, required coordination among executive branch
implementing agencies, and established the Office of the U.S. Global AIDS Coordinator
(S/GAC) within the Office of the Secretary of State. S/GAC was assigned primary responsibility
for coordinating and overseeing all U.S. Government activities to combat HIV/AIDS overseas.

         In FY 2004, Congress appropriated $488 million to the Global HIV/AIDS Initiative. That
same year, the first U.S. Global AIDS Coordinator announced the President’s Emergency Plan
for AIDS Relief (PEPFAR) and designated 15 “focus countries.” 2 Almost all Global Health
Initiative funds passed through S/GAC to implementing agencies, 3 bringing PEPFAR funding
for FY 2004 to approximately $2.3 billion. In 2008, Congress renewed the authorizing legislation
and passed the United States Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria
Reauthorization Act of 2008. 4 In FY 2012, $6.6 billion was appropriated to support PEPFAR.
Between FY 2004 and FY 2012, a cumulative total of $46 billion was enacted for PEPFAR; $6.7
billion was requested for FY 2014. 5

        PEPFAR represents the largest U.S. investment overseas on a single disease in the
country’s history. The program has been the subject of numerous studies and reviews by public
and private organizations, including the Government Accountability Office, the Institute of
Medicine of the National Academy of Sciences, several nongovernmental organizations, and
inspectors general at participating cabinet departments and agencies. While ambassadors at U.S.
embassies exercise authority managing PEPFAR, implementation is carried out by participating
agencies. Recognizing the vital role of coordination and planning, the Office of Inspector
General (OIG) has conducted several inspections of the program. These include a review of
S/GAC, 6 a survey of S/GAC, 7 and reviews of the exercise of chief of mission authority overseas 8
and small investment countries. 9 In addition, a review of the Department of State’s (Department)
role in coordinating the program is a standard element of all inspections of U.S. missions with an
active PEPFAR program.

        Reviews of program effectiveness and execution by agencies outside the Department are
the responsibility of the inspectors general of the implementing agencies.


1
  Pub. L. No. 108-25.
2
  Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria, Rwanda, South Africa, Tanzania,
Uganda, Zambia, Vietnam, Guyana, and Haiti.
3
  The primary implementing agencies are the U.S. Agency for International Development, the Centers for Disease
Control and Prevention, the Peace Corps, and the Department of Defense.
4
  Pub. L. No. 110-293.
5
  PEPFAR, Working Toward an AIDS Free Generation: Latest PEPFAR Funding, April 2013.
6
  Review of the Office of the U.S. Global AIDS Coordinator, OIG Report No. ISP-I-08-23, February 2008.
7
  Survey of the Office of the U.S. Global AIDS Coordinator, OIG Report No. AUD-IP-05-32, September 2005.
8
  The Exercise of Chief of Mission Authority in Managing PEPFAR Overseas, OIG Report No. ISP-I-10-01,
November 2009.
9
  Review of PEPFAR in Small Investment Countries, OIG Report No. ISP-I-11-59, August 2011.
                                           2
                              SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

        Recognizing S/GAC’s coordination and planning role and the extraordinary attention
PEPFAR receives from other oversight organizations, this inspection focused on a limited
number of areas, including S/GAC’s PEPFAR-specific operations and its ability to ensure that its
goals reflect budget realities and that it is adequately staffed to monitor and coordinate
implementation of the program. The inspection also examined S/GAC’s role in planning and
coordinating activities at the interagency level and with the new Office of Global Health
Diplomacy, which is separate from S/GAC but headed by the current S/GAC coordinator.




                                      3
                         SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Executive Direction
        In the 10 years of its existence, S/GAC has overseen the growth of a program that has
made significant contributions to containing a major public health threat. A 2013 Institute of
Medicine report concluded that “PEPFAR has made remarkable progress in meeting its aims,
reflecting the U.S. Government’s commitment and capability to respond to humanitarian crises
through the use of health and development assistance and health diplomacy.” 10

        The S/GAC coordinator has provided effective leadership. His scientific and technical
knowledge, energy, and commitment have made him a highly respected figure. During his
tenure, the number of countries covered by PEPFAR has expanded from 15 to 44, plus five
regional programs. Program choices have benefitted from the systematic use of scientific data,
and progress has made an AIDS-free generation an attainable goal. S/GAC works to maintain
excellent relations with Congress and the nongovernmental community and to expand public
knowledge of the program. The staff is motivated and committed despite being frustrated with
some administrative practices.

        Established to address a global health emergency, the office now faces the challenge of
transitioning to an entity that can lead the U.S. effort in the next phase, emphasizing the need for
recipient countries to take a greater role in funding, managing, and administering the program.

       The S/GAC leadership team rightly focuses on the substantive programs they oversee but
needs to pay greater attention to internal management. Leaders think about and discuss strategic
planning, but not in a way that fully documents the plans or tracks implementation. While
S/GAC carries out a number of tactical planning exercises, participants do not adequately
address long-term issues. These include the need for better planning on personnel matters. Staff
turnover is high: employee tenure averages 2.5 years and approximately 30 percent of the staff
has been on the job for a year or less. Burnout is common. Frequent vacancies sap the energy of
remaining staff and hinder the development of institutional memory. The office’s staffing chart
does not capture real reporting lines within the organization. S/GAC has made progress
reconfiguring the staff but more is needed.

       Internal communication could also be improved. Front office decisions are sometimes
slow. Junior staff interviewed by the OIG team asserted that front office communication is
inadequate and does not enable them to perform as effectively as they might. Measures to
address internal communication and paper flow are discussed in the Organization and
Management section of this report. A negative feature of internal communication is the
occasional use of abusive language in some parts of S/GAC; the OIG team counseled senior
leadership to make clear that such behavior is unacceptable.

       Although not a focus of this inspection, relations with overseas missions are productive.
Relationships with U.S. agencies’ headquarters are strong enough to provide effective
administration of the program, but bureaucratic wrangling in Washington absorbs too much
high-level time.

10
     Institute of Medicine, National Academy of Sciences, Evaluation of PEPFAR, February 20, 2013, p. s-2.
                                              4
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


         S/GAC needs to develop closer ties to the Department in general and to regional bureaus.
Given the shift to recipient-country ownership, S/GAC needs to put extra weight on diplomatic
efforts to negotiate successfully with bilateral partners. It should take advantage of the new
Office of Global Health Diplomacy to advance this objective.

        The conditions listed above indicate that leadership needs to pay greater attention to
internal management and administrative practices and to increase management expertise in the
senior levels of the organization.

Recommendation 1: The Office of the U.S. Global AIDS Coordinator should hire a senior
manager with knowledge of both the Department of State and the U.S. Government to improve
internal management. (Action: S/GAC)

Policy Review

        The OIG inspection came at a turning point for S/GAC. The current authorizing
legislation expires September 30, 2013. When President Bush established PEPFAR in 2003,
S/GAC was set up to promote effective coordination among implementing agencies. To carry out
its mission, the office drew on a small core of Department employees, staff detailed from other
agencies, and contractors. Since then, staff and budget have grown and program strategies have
evolved. In 2003, the staff was eight and the annual budget was $2.3 billion. By 2007, S/GAC
had 73 staff members and an annual budget of $4.5 billion. At the time of this inspection, it had
115 employees and an annual budget of $6.27 billion.

        PEPFAR marks its 10th anniversary in 2013. It is no longer an “emergency”
organization. In 2012, the PEPFAR Blueprint for Creating an AIDS-Free Generation established
goals for the program that will take it from emergency response through a transition that
emphasizes shared resources and toward a final state of recipient-country ownership, with the
United States providing support and expertise rather than direct services.

         This transition will require greater reliance on the ability of U.S. diplomatic missions to
persuade partner countries to take greater ownership of the program, including funding. In late
2012, the Department established the Office of Global Health Diplomacy to “guide diplomatic
efforts to advance the United States' global health mission to improve and save lives and foster
sustainability through a shared global responsibility…[by] providing diplomatic support in
advancing [U.S. Government] global health priorities.” 11 During this inspection, the Office of
Global Health Diplomacy was still being formed and staffed. Although the Global U.S. AIDS
Coordinator was named to head both offices, the Office of Global Health Diplomacy falls
outside the scope of this review.




11
     2012 State 124025.
                                        5
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Coordination and Planning
Coordination

        In establishing S/GAC, Congress and the White House rightly recognized that
coordinating the efforts of the U.S. Agency for International Development, the Centers for
Disease Control and Prevention, and other implementing agencies would be essential to
PEPFAR’s success. For the most part S/GAC has succeeded admirably in this task. Lives are
being saved, per unit costs are declining, and impressive progress is being made encouraging
recipient countries to take greater ownership of the program. As noted in earlier OIG reports, the
active engagement of U.S. ambassadors is key to effective interagency coordination in the field.

         The coordination process in Washington is sometimes messy and frustrating. Each
implementing agency has its own slant on how it can contribute to the success of the program.
Representatives from S/GAC and the U.S. Agency for International Development acknowledge
the relationship between the two agencies has deteriorated in recent years, and differences persist
over duties and authorities. However, there should be no doubt about the duties and authorities of
the U.S. Global AIDS coordinator; they were spelled out in the legislation that established the
office. 12 As S/GAC begins the next phase of its mission, it is important that the coordinator take
a strong leadership role and work closely with Congress and the White House, partner agencies,
and the Office of Global Health Diplomacy to affirm S/GAC’s vital coordination role. Restoring
the practice of holding regular principals’ meetings would help promote smoother relations. In
the past, such meetings were useful in fostering high-level dialogue and promoting transparency.

Recommendation 2: The Office of the U.S. Global AIDS Coordinator should hold quarterly
meetings of implementing agency principals. (Action: S/GAC)

        OIG’s 2008 inspection report noted that S/GAC needed to improve coordination with
several Department offices. The greatest improvement has been in S/GAC’s relationship with the
Office of U.S. Foreign Assistance Resources. The two offices work together to synchronize
country planning documents and data collection. The Office of U.S. Foreign Assistance
Resources also assists S/GAC in responding to budget questions from Congress. There has also
been greater cooperation between S/GAC and Department offices that work on related foreign
assistance and health programs. S/GAC has hired a Foreign Service officer as director of
interdepartmental coordination to foster better communication with Department bureaus and
functional offices.

        Relations with regional bureaus have also improved. Ambassadors and regional bureaus
realize that PEPFAR often has a larger budget than any other program in their countries and have
responded accordingly. Getting recipient countries to pick up a larger share of managing and
funding PEPFAR will require greater diplomatic efforts on global health. Close relations with
senior bureau officials will be important. The creation of the Office of Global Health Diplomacy
provides a new channel to create closer collaboration.


12
     Pub. L. No. 108-25 § 102.
                                              6
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Recommendation 3: The Office of the U.S. Global AIDS Coordinator, in coordination with the
Office of Global Health Diplomacy, should provide regular briefings to relevant Department of
State bureaus, including new ambassadors, front office staff, and country directors. (Action:
S/GAC, in coordination with S/GHD)

        Coordination efforts lead to frequent consultations and meetings. During the inspection,
S/GAC hosted several weeks of intense Country Operating Plan (COP) reviews. The 2008 OIG
inspection examined the COP process and issued an informal recommendation to “reduce and
focus the reporting burden.” 13 Steps have been taken to pare down unnecessary or duplicative
reporting but more remains to be done. In general, participants recognize that the heavy schedule
of meetings by S/GAC is unavoidable. But several weeks of day-long COP meetings and
regularly scheduled 5-hour deputy principal meetings suggest that the same value added might
be achieved by having tighter agendas, fewer meetings, and a more even distribution of these
events where possible. Making meetings more efficient is part of the need for greater managerial
focus noted in the leadership section of this report.

           Informal Recommendation 1: The Office of the U.S. Global AIDS Coordinator should
           refine the country operating plan process to reduce reporting requirements and
           coordination meetings

           Informal Recommendation 2: The Office of the U.S. Global AIDS Coordinator should
           draw on input from all participants to design and implement a study of how to make its
           meetings more effective, including careful scheduling, better meeting management, and
           documenting actions and decisions made in these meetings.

Strategic Planning

       S/GAC has a sound strategic planning process for overseas programs, but strategic
planning for its own office is less rigorous. The COP process is designed to ensure that S/GAC’s
overseas programs reflect the vision outlined in the PEPFAR Blueprint: Creating an AIDS Free
Generation, are realistically funded, have well-defined end states and measures of success, and
contain appropriate feedback mechanisms to guide future programming. The process requires
overseas managers to plan and allocate sufficient human and financial resources to effectively
monitor and administer these programs.

        In managing its internal operations, S/GAC employs a similar process in the headquarters
operations proposal (HOP). While this document addresses current needs, it does not address
long-term planning. As S/GAC moves ahead, it needs to develop an effective strategic plan to
address its role in the future, including funding. At the end of FY 2012, the United States directly
supported more than 5.1 million men, women, and children on antiretroviral treatment through
bilateral programs. 14 While Congress has shown broad bipartisan support for the program, good
management requires that S/GAC plan for a range of contingencies, including how to continue
providing medication to millions of people if funding is cut. The office also needs to address
how its staffing would change if the transition to recipient-country ownership is successful.

13
     OIG Report No. ISP-I-08-23, op. cit., p. 51.
14
     PEPFAR, Ninth Annual Report to Congress, p. 1.
                                             7
                                SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Several staff members noted that uncertainties in future budgets limit planning to the short-term
rather than the long-term. The greater the uncertainty, the greater the need for contingency
planning so that crucial decisions are not made under deadline pressure without adequate
discussion.

         No official in the front office has specific responsibility for strategic planning that
addresses the long-term implications for S/GAC as the program transitions from emergency to
sustainability to country ownership. S/GAC leadership held an off-site planning meeting in 2012,
but it did not produce any formal long-term strategy paper, taskings, resource analysis, or action
plans. When no one “owns” an issue but everyone thinks about it, ideas are not brought together
in a single place, programmatic vision is not linked with administrative resources, input from
working-level staff may not be adequately taken into consideration, and no records are kept to
guide future leadership.

Recommendation 4: The Office of the U.S. Global AIDS Coordinator should assign strategic
planning responsibilities to a senior staff member and provide appropriate staff support. (Action:
S/GAC)

        In 2008, OIG reported that “S/GAC staffing…will soon be under review as part of the
first-ever Headquarters Operations Plan (HOP). The HOP, the domestic counterpart of the COPs
prepared at posts, will look at all headquarters-level PEPFAR programs, support functions, and
costs, with the objective of creating more transparency, accountability, and improved control
over staffing and funds. The HOP will also identify future staffing needs and examine staffing
alignment.” 15 The inspection team’s review of recent HOPs indicated they cover one year only
and do not incorporate strategic planning for future years under different funding scenarios.

Recommendation 5: The Office of the U.S. Global AIDS Coordinator should develop a
strategic plan to address long-term goals and internal staffing needs under a variety of funding
levels. (Action: S/GAC)




15
     OIG Report No. ISP-I-08-23, op. cit., p. 33.
                                               8
                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Organization and Management
Staffing

        S/GAC’s personnel structure is not adequate for the transition ahead. The office uses a
mix of Foreign Service, Civil Service, detailees from coordinating agencies, contractors, and
interns. Only one-third of its personnel are in long-term positions, and the average length of time
for employees to work in S/GAC is 2.5 years. Approximately one-half of S/GAC’s positions are
filled with contract personnel, including several senior positions tasked with inherently
governmental responsibilities. An emphasis on hiring subject matter experts rather than
management experts has created an imbalance. There are many senior-level staff and a large
number of relatively junior employees. A number of middle managers serve as office directors
but do not exercise sufficient decisionmaking authority to free up senior officials to handle
policy and interagency coordination.

        Finally, the organization of the staff is unwieldy, with nine senior advisors and special
assistants reporting directly to the coordinator. Some reporting chains are distorted because
contract personnel fill what should be supervisory positions. This unusual staff organization has
made it difficult to implement clear procedures and to manage tasks effectively.

Recommendation 6: The Office of the U.S. Global AIDS Coordinator, in coordination with the
Bureau of Human Resources and the Bureau of Administration, should conduct a workforce
study to design an appropriate staffing structure for the Office of the U.S. Global AIDS
Coordinator. (Action: S/GAC, in coordination with DGHR and A)

        S/GAC relies on a number of contracts to provide contract personnel. The executive
division spends considerable time and effort to recruit and hire contractors for specific positions,
including advertising positions on the PEPFAR Web site, interviewing candidates, and
negotiating the scope of work and even salary level by using negotiated discounts on task orders
with the company. According to the Foreign Affairs Handbook, 14 FAH-2 H-522.6, the contract
company is responsible for recruitment, hiring, and firing of contract personnel, and the U.S.
Government should not perform this function. Through its actions, S/GAC is inappropriately
placing itself in the role of employer.

Recommendation 7: The Office of the U.S. Global AIDS Coordinator should cease directly
recruiting contract personnel and implement a process that leaves this function with the contract
company. (Action: S/GAC)

        One particular contract position has an excessively high unit price, which S/GAC
negotiated. The cost to the U.S. Government for this part-time senior advisor is $237 per hour.
This amount far exceeds the maximum hourly cost of $153 per hour for the senior executive
position set forth in the original contract, which includes a price schedule comparable to the
general wage schedule for direct-hire employees. S/GAC requested a contract modification for
the higher rate but was unable to provide the inspection team with documentation to justify the
higher rate.


                                        9
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 8: The Office of the U.S. Global AIDS Coordinator should modify the task
order for the senior advisor to bring the unit price within the range identified in the original
contract. (Action: S/GAC)

        Contracting officer’s representatives in S/GAC are not performing their oversight duties
effectively. In addition to the practices described above, they do not maintain full records,
delegate the task of approving invoices for payment, or conduct technical oversight of contract
personnel. Absent guidance from the contracting officer’s representative, managers within
S/GAC were not aware of their oversight requirements and were tasking contractors with work
outside the scope of their contracts and with inherently governmental tasks. For example, the
position of chief operating officer was filled by a contractor for 2 years before it was converted
to a limited-term appointment.

Recommendation 9: The Office of the U.S. Global AIDS Coordinator, in coordination with the
Office of Acquisitions Management, should require contracting officer’s representatives to take
refresher training and implement appropriate policies regarding oversight of contract personnel.
(Action: S/GAC, in coordination with A)

Monitoring & Evaluation

        As PEPFAR moves to encouraging country ownership, S/GAC needs to play a key role
in program oversight by collecting and evaluating data from all agencies and implementing
partners. Previous inspection reports by the Department and coordinating agencies have
identified problems and management challenges in PEPFAR. Yet S/GAC has not adopted a
comprehensive monitoring and evaluation strategy that takes advantage of the many sources of
information available.

        The current approach is focused on collecting data and improving indicators, under the
leadership of the director of strategic information. An important requirement is to incorporate all
PEPFAR data into the system and consolidate different streams into a single channel. However,
the director does not oversee all data management systems. The strategic information unit is
developing methods to gather data through FACTS-Info and other data management systems; the
office of research science uses an expenditure analysis program that analyzes cost structures
within country programs and identifies outliers; and the sustainability and integration unit
collects data on progress toward country ownership. Implementing agencies use their own data
collection methods and share data with the technical working groups.

        S/GAC needs to consolidate data collection into a single system and articulate a clear
strategy for monitoring and evaluation.

       Informal Recommendation 3: The Office of the U.S. Global AIDS Coordinator should
       develop an overall monitoring and evaluation strategy and designate a single point of
       control for implementation.




                                       10
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Administrative Oversight

        S/GAC has a small executive unit that manages administrative tasks. The unit is currently
adding new staff to manage S/GAC’s growing responsibilities, including providing human
resources for PEPFAR country coordinators overseas. Internally, the unit supports transportation
and travel, basic human resource issues, and procurement.

       S/GAC has a dedicated motor vehicle for use by the coordinator and other senior staff.
The executive division does not maintain sufficient documentation of vehicle use to determine
whether the vehicle is utilized in accordance with the Foreign Affairs Manual, 6 FAM 1930, and
31 U.S.C. 1344. Without this information the office is unable to monitor use of the vehicle or
determine whether maintaining it is cost effective and correctly authorized.

Recommendation 10: The Office of the U.S. Global AIDS Coordinator, in coordination with
the Bureau of Administration, should maintain vehicle-use records, designate an accountable
employee to review them, and verify the vehicle is cost effective and correctly authorized.
(Action: S/GAC, in coordination with A)

        Employees in S/GAC travel frequently to provide technical assistance in the field and to
attend meetings with bilateral and multilateral partners and nongovernmental organizations. The
office’s travel budget for FY 2013 was $2.7 million. While the office has an adequate process for
units to create budgets for travel in an upcoming fiscal year, the submitted information lacks
enough detail and justification to appropriately prioritize and support the proposed trips. The
Department is working with the Office of Management and Budget to reduce travel costs and
limit expenses to mission-critical trips. To comply with this initiative, travel proposals must
detail not only the nature of travel, but also the work to be performed and goals to be achieved in
order to justify the travel as mission-critical.

Recommendation 11: The Office of the U.S. Global AIDS Coordinator should implement a
process that provides sufficient information to prioritize travel requests and justify all
expenditures. (Action: S/GAC)

Office Security

       S/GAC does not have a unit security officer to provide guidance and to oversee security
procedures. [Redacted] (b) (5), [Redacted] (b) (7)(F)

                                                                                      Guidance in
12 FAM 563 requires an active security training and orientation program.

Recommendation 12: The Office of the U.S. Global AIDS Coordinator should designate a unit
security officer and implement a training and orientation program. (Action: S/GAC)




                                       11
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Managing Information


        S/GAC lacks many of the information management structures found in other Department
offices. Decisionmaking is not always delegated to the appropriate level. Clogged inboxes
sometimes delay timely responses. Taskings, due dates, and responses are not systematically
tracked. Meeting results are not recorded.

        Informal Recommendation 4: The Office of the U.S. Global AIDS Coordinator should
        designate a full-time staff assistant to track documents, enforce clearance and decision
        deadlines, and record and disseminate the results of staff meetings.

Knowledge Management

        S/GAC has at least five different platforms for sharing essential information. There is a
collaboration work site maintained by the executive office and hosted by the Bureau of
Information Resource Management (IRM); a shared drive on the office server; a public access
Web site managed by the public affairs unit; a FACTS-Info site that links S/GAC data to the
standard database used by the Office of U.S. Foreign Assistance Resources; and a password-
protected site that enables implementing agencies without access to the Department’s intranet
system to share information.

        Over the past 5 years, S/GAC has spent $27 million to develop databases and other
knowledge management tools. Yet the proliferation of platforms continues, with plans to develop
several new platforms to collect program-related data. S/GAC regularly forward-funds these
projects, and at the time of the inspection the full $11.5 million from FY 2012 was still unspent.
Budgets for these projects far exceed actual expenditures, and it appears the office regularly
allocates more funds for these projects than it expects to use in the current fiscal year rather than
developing a sound plan that reflects actual expected costs.

Recommendation 13: The Office of the U.S. Global AIDS Coordinator should revise the budget
for technical data systems to accurately reflect actual plans and expenditures. (Action: S/GAC)

       The strategic information unit is responsible for managing information technology but
focuses on collecting program reporting data, not overall workflows and processes. S/GAC does
not have a content manager with responsibility for material placed on public platforms. [Redac
[Redacted] (b) (5)                                                                        ted] (b)
                                                                                          (5)


Recommendation 14: The Office of the U.S. Global AIDS Coordinator should designate a
content manager to review information placed on its public and internal Web sites for
compliance with Department of State information security standards and regulations. (Action:
S/GAC)

        S/GAC’s wide variety of employees with very different roles and different training is
both a strength and weakness. Stovepiping and communication are challenges. While the office
attempts to ensure that communication is effective and that different sections are aware of what
                                               12
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

other sections are doing, this process currently depends on meetings and personal contact. A
more collaborative workplace platform would assist in addressing both challenges noted above
and also provide a permanent record of discussions and decisions. An informed knowledge
manager could assist S/GAC to address disparate information platforms, increase the efficiency
of S/GAC’s processes, and encourage more effective sharing of information.

Recommendation 15: The Office of the U.S. Global AIDS Coordinator should designate a
knowledge manager to implement a plan to rationalize information work platforms. (Action:
S/GAC)




                                      13
                         SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Information Technology

         The service-level agreement between S/GAC and IRM is outdated. As part of the
Department’s information technology consolidation effort, S/GAC receives routine desktop
support from IRM. This support includes day-to-day operational functions, patching of
workstations, workstation scans for authorized software, user account creation, and printer and
digital sender support, and similar tasks. The current service-level agreement, dated October
2010, is vague in terms of which responsibilities should be handled by IRM and which by
S/GAC. IRM is aware of the need to revise the service-level agreement to make it more clear and
up to date but has not met with S/GAC to do so.

Recommendation 16: The Bureau of Information Resource Management, in coordination with
the Office of the U.S. Global AIDS Coordinator, should revise its information technology
service-level agreement to include current support responsibilities. (Action: IRM, in
coordination with S/GAC)

        The service-level agreement does not include information systems security officer
responsibilities—an area of confusion observed by the OIG team. IRM told the team that an
individual in S/GAC had been assigned as primary information systems security officer. When
asked to confirm, the individual informed the OIG team that he was never assigned that
responsibility. It is not clear who, if anyone, is handling this important role. While responsibility
for information systems security for consolidated bureaus resides with IRM, S/GAC is required
to assign an individual to handle out-of-scope responsibilities 16 per 1 FAM 270 and 5 FAM 824.

Recommendation 17: The Office of the U.S. Global AIDS Coordinator, in coordination with
the Bureau of Information Resource Management, should designate a primary information
systems security officer. (Action: S/GAC, in coordination with IRM)

PEPFAR SharePoint Project

         S/GAC is consolidating two legacy systems and shared folders into a main SharePoint
site to be used as a collaborative platform. The project is supported by three contract
companies—one taking the lead role for development and testing and the other two assisting
with project management and training. S/GAC asserts the new intranet site will allow for better
collaboration and sharing of information with their user community, including other agencies.
         Major development work is scheduled to be completed by September 2013, with only
minimal fine tuning of the site and training remaining; therefore, the current level of contract
support will not be needed. S/GAC management has begun discussions to determine the level of
contract support that will be needed when the site is operational.




16
  In-scope responsibilities are handled by IRM after information technology consolidation, while out-of-scope
responsibilities remain the bureaus’ responsibility.
                                           14
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The project team is using agile project management methodology 17 with the SharePoint
project. The OIG team found detailed project documentation, including a project charter,
implementation plan, communications plan, change management plan, testing plan, and training
modules. Additionally, weekly progress meetings are held by the project team—with minutes
clearly documented on the team’s working site. Project documentation is developed and
maintained by the contractors, which S/GAC staff can access on the team’s working site.
However, source coding documentation is not accessible and has not been shared with S/GAC
staff. The PEPFAR intranet work site is being developed with custom coding; S/GAC personnel
need access to source codes to make any future changes to the Web site.

Recommendation 18: The Office of the U.S. Global AIDS Coordinator should obtain access
from the contract company to source coding documentation for the development of its
SharePoint Web site. (Action: S/GAC)




17
  Agile project management methodology is based on iterative and incremental development where requirements
and solutions evolve through collaboration between teams. It promotes adaptive planning, development and
delivery, and encourages rapid and flexible response to change.
                                          15
                             SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Management Resources
                  Office of the U.S. Global AIDS Coordinator Staffing
  U.S.     Foreign     Civil     Excepted Contractors Detailees       Other      Total
 Staff -   Service    Service     Service
Domestic        2        20         12           56          17         6         113
  U.S.       Foreign Service          Civil Service           PEPFAR             Total
 Staff -                              Excursions             Coordinators
Overseas            0                      0                       28             28
Source: S/GAC


                           FY 2012 Resources Controlled by S/GAC
                            Funding Description                         Amount (000s)
Global Health Programs – Department
Bilateral HIV/AIDS                                                            $4,242,860
Global Fund                                                                   $1,300,000
Global Health Programs - USAID HIV/AIDS                                         $350,000
Department of Health and Human Services HIV/AIDS
Centers for Disease Control and Prevention                                     $117,800
Bilateral HIV/AIDS (GAP)
National Institutes of Health                                                  $364,460
HIV/AIDS Research
Department of Defense HIV/AIDS                                                    $8,000
TOTAL Tuberculosis Bilateral                                                    $256,000
TOTAL PEPFAR, including Tuberculosis (w/o malaria)                            $6,639,000
Source: S/GAC




                                     16
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office of the U.S. Global AIDS Coordinator should hire a senior
manager with knowledge of both the Department of State and the U.S. Government to improve
internal management. (Action: S/GAC)

Recommendation 2: The Office of the U.S. Global AIDS Coordinator should hold quarterly
meetings of implementing agency principals. (Action: S/GAC)

Recommendation 3: The Office of the U.S. Global AIDS Coordinator, in coordination with
the Office of Global Health Diplomacy, should provide regular briefings to relevant Department
of State bureaus, including new ambassadors, front office staff, and country directors. (Action:
S/GAC, in coordination with S/GHD)

Recommendation 4: The Office of the U.S. Global AIDS Coordinator should assign strategic
planning responsibilities to a senior staff member and provide appropriate staff support. (Action:
S/GAC)

Recommendation 5: The Office of the U.S. Global AIDS Coordinator should develop a
strategic plan to address long-term goals and internal staffing needs under a variety of funding
levels. (Action: S/GAC)

Recommendation 6: The Office of the U.S. Global AIDS Coordinator, in coordination with
the Bureau of Human Resources and the Bureau of Administration, should conduct a workforce
study to design an appropriate staffing structure for the Office of the U.S. Global AIDS
Coordinator. (Action: S/GAC, in coordination with DGHR and A)

Recommendation 7: The Office of the U.S. Global AIDS Coordinator should cease directly
recruiting contract personnel and implement a process that leaves this function with the contract
company. (Action: S/GAC)

Recommendation 8: The Office of the U.S. Global AIDS Coordinator should modify the task
order for the senior advisor to bring the unit price within the range identified in the original
contract. (Action: S/GAC)

Recommendation 9: The Office of the U.S. Global AIDS Coordinator, in coordination with
the Office of Acquisitions Management, should require contracting officer’s representatives to
take refresher training and implement appropriate policies regarding oversight of contract
personnel. (Action: S/GAC, in coordination with A)

Recommendation 10: The Office of the U.S. Global AIDS Coordinator, in coordination with
the Bureau of Administration, should maintain vehicle-use records, designate an accountable
employee to review them, and verify the vehicle is cost effective and correctly authorized.
(Action: S/GAC, in coordination with A)




                                       17
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Office of the U.S. Global AIDS Coordinator should implement a
process that provides sufficient information to prioritize travel requests and justify all
expenditures. (Action: S/GAC)

Recommendation 12: The Office of the U.S. Global AIDS Coordinator should designate a
unit security officer and implement a training and orientation program. (Action: S/GAC)

Recommendation 13: The Office of the U.S. Global AIDS Coordinator should revise the
budget for technical data systems to accurately reflect actual plans and expenditures. (Action:
S/GAC)

Recommendation 14: The Office of the U.S. Global AIDS Coordinator should designate a
content manager to review information placed on its public and internal Web sites for
compliance with Department of State information security standards and regulations. (Action:
S/GAC)

Recommendation 15: The Office of the U.S. Global AIDS Coordinator should designate a
knowledge manager to implement a plan to rationalize information work platforms. (Action:
S/GAC)

Recommendation 16: The Bureau of Information Resource Management, in coordination with
the Office of the U.S. Global AIDS Coordinator, should revise its information technology
service-level agreement to include current support responsibilities. (Action: IRM, in
coordination with S/GAC)

Recommendation 17: The Office of the U.S. Global AIDS Coordinator, in coordination with
the Bureau of Information Resource Management, should designate a primary information
systems security officer. (Action: S/GAC, in coordination with IRM)

Recommendation 18: The Office of the U.S. Global AIDS Coordinator should obtain access
from the contract company to source coding documentation for the development of its
SharePoint Web site. (Action: S/GAC)




                                       18
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Office of the U.S. Global AIDS Coordinator should refine
the country operating plan process to reduce reporting requirements and coordination meetings

Informal Recommendation 2: The Office of the U.S. Global AIDS Coordinator should draw
on input from all participants to design and implement a study of how to make its meetings more
effective, including careful scheduling, better meeting management, and documenting actions
and decisions made in these meetings.

Informal Recommendation 3: The Office of the U.S. Global AIDS Coordinator should
develop an overall monitoring and evaluation strategy and designate a single point of control for
implementation.

Informal Recommendation 4: The Office of the U.S. Global AIDS Coordinator should
designate a full-time staff assistant to track documents, enforce clearance and decision deadlines,
and record and disseminate the results of staff meetings.




                                       19
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                 Name     Arrival Date
Coordinator                                               Eric Goosby         06/23/09
Principal Deputy Coordinator                   Deborah von Zinkernagel        03/28/10
Deputy Coordinator for Strategic Information                Paul Bouey        08/08/06
Deputy Coordinator for Technical Leadership              Caroline Ryan        10/17/04
Executive Director                                      William Dilday        09/01/03
Director of Management and Budget                         Mark Brown          05/09/10
Director of Interdepartmental Coordination            Michael Feldman         08/09/11
Director of Congressional Relations                     Emily Gibbons         06/01/11
Director of Sustainability and Integration               Mamadi Yilla         05/28/10
Director of Multilateral Diplomacy                     Jason Lawrence         05/10/12
Director of Country Support                                      Vacant
Director of Public Affairs                                       Vacant
Chief Operating Officer                                    Julia Martin       12/01/09
Director of Private Sector Engagement                            Vacant
Head of Research and Science                                     Vacant
Head of Clinical Services                                        Vacant




                                      20
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
COP               Country Operational Plan

Department        U.S. Department of State

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

HOP               Headquarters Operational Plan

IRM               Bureau of Information Resource Management

OIG               Office of Inspector General

PEPFAR            President’s Emergency Plan for AIDS Relief

S/GAC             Office of the U.S. Global AIDS Coordinator




                             21
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
